        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Management Alert on Environmental
Management's Select Strategy for
Disposition of Savannah River Site
Depleted Uranium Oxides




OAS-RA-10-07                          April 2010
                                  Department of Energy
                                    Washington, DC 20585
                                           April 9, 2010

MEMORANDUM FOR THE UNDER SECRETARY OF ENERGY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Management Alert on Environmental
                          Management's Select Strategy for Disposition of Savannah River Site
                          Depleted Uranium Oxides

BACKGROUND

The Administration and the Congress, through policy statements and passage of the American
Recovery and Reinvestment Act of 2009 (Recovery Act), have signaled that they hope that
proactive actions by agency Inspectors General will help ensure that Federal Recovery Act
activities are transparent, effective and efficient. In that context, the purpose of this management
alert is to share with you concerns that have been raised to the Office of Inspector General
regarding the planned disposition of the Savannah River Site's (SRS) inventory of Depleted
Uranium (DU) oxides. This inventory, generated as a by-product of the nuclear weapons
production process and amounting to approximately 15,600 drums of DU oxides, has been stored
at SRS for decades. A Department source we deem reliable and credible recently came to the
Office of Inspector General expressing concern that imminent actions are planned that may not
provide for the most cost effective disposition of these materials.

During April 2009, the Department chose to use funds provided under the Recovery Act to
accelerate final disposition of the SRS inventory of DU oxides. After coordination with State of
Utah regulators, elected officials and the U.S. Nuclear Regulatory Commission, the Department
initiated a campaign to ship the material to a facility operated by EnergySolutions in Clive, Utah.
Although one shipment of a portion of the material has already been sent to the EnergySolutions
facility, the majority of the product remains at SRS. As had been planned, both for the shipment
already made and those planned in the near term, the EnergySolutions facility was to have been
the final disposal location for the material.

IMMEDIATE CONCERN

Recently, a member of Congress and various Utah State officials raised questions regarding the
radioactive and other constituents present in the DU oxides to be disposed of at the Clive, Utah,
facility. These concerns revolved around the characterization of the material and its acceptability
under existing licensing criteria. As a consequence, the Governor of Utah met with Department
officials to voice concerns regarding further shipments of the material and to seek return of the
initial shipment of DU oxides to SRS. Utah's objections and the Department's agreement to
accede to the State's demands effectively prohibit the transfer of the remaining material from
South Carolina to Utah.
In response, the Department evaluated its options and issued a draft decision paper on March 1,
2010, which outlined an alternative for temporary storage until the final disposition issue could
be resolved. Under the terms of the proposed option, the remaining shipments from SRS are to
be sent on an interim basis to a facility owned by Waste Control Specialists (WCS) in Andrews,
Texas. Clearly, this choice carries with it a number of significant logistical burdens, including
substantial additional costs for, among several items, repackaging at SRS, transportation to
Texas, storage at the interim site, and, repackaging and transportation to the yet-to-be-
determined final disposition point.

The Department source expressed the concern that the proposal to store the material on an
interim basis in Texas was inefficient and unnecessary, asserting: (i) that the materials could
remain at SRS until a final disposition path is identified, and that this could be done safely,
securely and cost effectively; and, (ii) that the nature of the material was not subject to existing
compliance agreements with the State of South Carolina, suggesting the viability of keeping the
material in storage at SRS until a permanent disposal site is definitively established. We noted
that, while the Department's decision paper referred to "numerous project and programmatic
factors…that make it impractical to retain the remaining inventory at Savannah River," it did not
outline the specific issues involved nor did it provide any substantive economic or environmental
analysis supporting the need for the planned interim storage action. The only apparent driver in
this case was a Recovery Act-related goal established by the Department to accelerate the
general disposition of the SRS material.

We recognize that decisions such as the one proposed for the SRS inventory of DU oxides are
often more complex and nuanced than might appear on the surface. Consideration of factors
such as cost, state interest, posture of local regulators, etc., are important elements in this
process. Although, we have not completed sufficient work to reach an independent judgment on
the merits of this matter, we wanted to ensure that the Department was aware of the concerns that
have been raised before imminent decisions and resource commitments were made regarding the
path forward. To the credit of the employee who brought these concerns to our attention, the
hope was expressed that the decision reached would be both sensitive to the needs of the people
in and around the SRS as well as the best interests of the taxpayers and citizens of the Nation.

In that light, we suggest that the Department consider the expressed concerns as it evaluates the
economic feasibility and programmatic impact of the planned or pending move of the SRS DU
oxides to the WCS facility in Texas.

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

Management stated that although a final decision on the storage and disposal of the DU oxides
has not been made, they are aware of the concerns that a decision to pursue interim storage at
WCS may result in increased cost to the Department. In response to those concerns,
management requested a cost assessment analysis of various interim storage alternatives.
However, they emphasized that cost is only one among multiple factors that must be balanced
with issues such as potential impacts to other site efforts, community input, leveraging existing
resource investments, and future Environmental Management liabilities. They concluded that
the Department intends to permanently dispose of the DU oxides off-site while delivering the

                                                 2
overall best value to the taxpayers, considering both cost and non-cost factors. Given our
interest in this project, management agreed to keep the Office of Inspector General informed of
ongoing evaluations and any future decisions.

We consider management's comments responsive to our suggestion. Our primary concerns are
that the method that the Department selects for disposing of the DU oxides achieve the best value
for the taxpayer and, to the extent possible, ensures that Recovery Act goals are met and funds
are well spent. We understand that a final decision has not been made and will ultimately
involve consideration of a number of complex variables. Accordingly, we will continue to
monitor the Department's progress on the ultimate disposition of the DU oxides.

Management's written comments are attached in their entirety.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Assistant Secretary, Environmental Management
    Special Advisor to the Secretary for the Recovery Act
    Chief of Staff
    Manager, Savannah River Site
    Chief Financial Officer




                                               3
2
3
                                                          IG Report No. OAS-RA-10-07

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
